APPLICATION AND
SOLICITATION
DISCLOSURE

VISA PLATINUM/VISA REWARDS/VISA SECURED

Interest Rates and Interest Charges

Interest Rates and Interest Charges
Annual
Percentage
for
Annual
Percentage
Rate Rate
(APR)(APR)
for
Purchases
Purchases

Visa Platinum

8.49% to 23.74% , when you open your Account, based on
your creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Rewards

9.99% to 25.24%

, when you open your Account, based on
your creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Secured

19.74%
This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

Visa Platinum
0.00% Introductory APR for 12 months from Account opening.
After that, your APR will be 8.49% to 23.74% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards
9.99% to 25.24% , when you open your Account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured
19.74%

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.
Visa Platinum
8.49% to 23.74% , when you open your Account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards
9.99% to 25.24% , when you open your Account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured
19.74%
This APR will vary with the market based on the Prime Rate.
SEE NEXT PAGE for more important information about your account.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01203204-MXC10-C-3-062419 (MXC101-E)

Penalty APR and When it Applies

Visa Platinum
None
Visa Rewards
None
Visa Secured
None

How to Avoid Paying Interest on
Purchases

Your due date is at least 21 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
Minimum Interest Charge
None
To
learnlearn
more about
factors about
to considerfactors
when applying
or using a creditwhen
card, visit applying
the website of the
Consumer
Financiala
For Credit Card Tips from the
To
more
toforconsider
for
or using
Protection Bureau at
Consumer Financial Protection Bureau credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.
Fees
Annual Fee
Annual
Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
$10.00 or 3.00% of the amount of each balance transfer, whichever is
greater
$10.00 or 3.00% of the amount of each cash advance, whichever is greater
2.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Platinum:
The Introductory APR for balance transfers applies to transactions posted to your Account during the first 60 days
following Account opening. Any existing balances on Great Lakes Credit Union loan or credit card accounts are not
eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 20, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Secured is a secured credit card. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01203204-MXC10-C-3-062419 (MXC101-E)

Balance Transfer Fee (Finance Charge):
$10.00 or 3.00% of the amount of each balance transfer, whichever is greater.
Cash Advance Fee (Finance Charge):
$10.00 or 3.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
None.
Pay-by-Phone Fee:
$10.00.
Rush Fee:
$60.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01203204-MXC10-C-3-062419 (MXC101-E)

